Capital Case
Case No.19-1106

In the

Supreme Court of the United States
TOMMY SHARP, Interim Warden
Oklahoma State Penitentiary,
Petitioner,
v.
RODERICK L. SMITH
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

CERTIFICATE OF SERVICE
I, Emma V. Rolls, a member of the Bar of this Court, pursuant to Rule 29 of the
Rules of the Supreme Court of the United States, hereby certify that on this 6th day of May,
2020, I served a copy of Respondent’s letter to the clerk of the Supreme Court requesting an
additional thirty (30) days in which to respond to Petitioner’s Petition for Writ of Certiorari
via electronic email service to counsel for Petitioner:
Caroline Elizabeth Jane Hunt, Assistant Attorney General
313 N.E. 21st Street, Oklahoma City, OK 73105
caroline.hunt@oag.ok.gov; fhc.docket@oag.ok.gov
s/ Emma V. Rolls
Emma V. Rolls
Assistant Federal Public Defender
215 Dean A. McGee Ave., Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 (telephone)
(405) 609-5976 (facsimile)
Emma_Rolls@fd.org
Counsel of Record for Roderick Smith,
Respondent

